r7

H

r^,

!■'

No.

,/ 9- 90S
.J

In The
Supreme Court of the United States of America

MICHAEL RAMON OCHOA,
Petitioner, pro se,
v.
Dr. Arthur Levine, et al,
Respondents.

On Petition for a Writ of Certiorari
To The Pa. Supreme Court at 135 WAL 2019;
The Pa. Superior Court at 327 WDA 2019;
and The Allegheny County, Pa. Civil/Commerce and Complex Litigation Center at
GD-13-011757.

PETITION FOR WRIT OF CERTIORARI

Michael Ramon Ochoa
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
November 07, 2019

1

QUESTIONS PRESENTED
1.

The questions posed in the course of appellate actions at FD-07-000190 were

made cognizable by stipulation of all represented parties.1
Each question should be regarded as if entered here in its entirety.2
2.

Would claims of 42 Pa.C.S. §8351 Wrongful use of civil proceedings, civil

conspiracy or 42 Pa.C.S. §8344 Defamation be irreparably lost per Pa.R.A.P. §313(b)
Collateral Orders if this appeal is not heard?2
3.

Are the trial courts instructions per Count 2 intelligible?

4.

Would the underlying criminal complaints or data supporting those claims be

irreparably lost if this appeal is not heard?
5.

Was that the intention of the trial court?

6.

Would this perverse outcome further erode Pa. Constitution Article 1§11 or U.S.

Constitution Article IV§1?
7.

Why did the Hon. David Wecht participate in decisions about FD-07-000190?

8.

Do either 18 U.S.C. §1346 or U.S.C. §1961 provide remedy for the problem of

Thrasymachusl Does the UNewOrganonl
9.

Could all of this damage be mitigated by ordering the trial court to hear

04-25-19 Amended Complaint?4

1 See attached Exhibit G. Items of Judicial Notice or https://www.academia.edu/38126093/
Exhibit_G._Items_of_Judicial_Notice
2 See attached Exhibit H. Questions or Aporia or https://www.academia.edu/39906428/
ExhibitJH ._Questions_or_Aporia
3

For definitions of civil conspiracy see: Weaver v. Franklin County, 918 A.2d 194, 202 (Pa.Cmwlth.
2007), and Reading Radio, Inc. v. Fink, 833 A.2d 199, 212 (Pa.Super. 2003).
4 See attached Exhibits E-F or download directly at https://www.academia.edu/
38953832/04-25-19_Amended_Complaint

11

LISTS OF PARTIES AND RELATED PROCEEDINGS
Contact information for the petitioner is on the cover. The complete list of
respondents is attached as Exhibit A. Defendants at App.37-39, with redacted updates
downloadable at: https://www.academia.edu/38126065/Exhibit_A._Defendants
The 01-23-19 trial court order under appeal here was limited to issues involving^
Defendant 10

David S. Pollock, Esquire, PA I.D. #19902
437 Grant Street, Suite 501
Pittsburgh, PA 15219
412-471-9000

Defendant 11

Brian C. Vertz, Esquire, PA I.D. #64822
437 Grant Street, Suite 501
Pittsburgh, PA 15219
412-471-9000

Defendant 12

Pollock Begg Komar Glasser & Vertz, LLC, PA Firm #419
437 Grant Street, Suite 501
Pittsburgh, PA 15219
412-471-9000

Defendant 13

Benjamin E. Orsatti, PA I.D. #93092
437 Grant Street, Suite 501
Pittsburgh, PA 15219
412-471-9000

A list of all proceedings in state and federal trial and appellate courts, including
proceedings in this Court, that directly arise from the same 250 Root Facts of this case
in this Court are now attached to every significant filing as Exhibit G. Items of Judicial
Notice, which can be found at App.46, with updated .pdf versions linked to the Root
Data at: https://www.academia.edu/38126093/Exhibit_G._Items_of_Judicial_Notice

5 No Praecipae for Appearance has been entered for any of these defendants in any venue, though they
have appeared as if representing each other.

Ill

TABLE OF CONTENTS
Page
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

4

CONCLUSION

5

♦
INDEX OF APPENDICES
Appendix A. Decision of State Court of Appeals Quashing the Appeals
03-25-19 327 Quash Sua Sponte

App.l

Appendix B. Decision of State Court of Appeals Denying Rehearing
04-09-19 327 Reconsideration DENIED

App.2

Appendix C. Decisions and Opinions of State Trial Court on Appeal
01-23-19 GRANTED Preliminary Objections of Defendants 10,11,
12,13................................................
App.3
App.4
03-15-19 Reconsideration DENIED
Appendix D. Decision of State Supreme Court Denying Review
09-16-19 135 WAL 2019 Petition DENIED

App.5

Exhibits Dashboard

App.6

Exhibits A-I

App.7-18

IV

TABLE OF AUTHORITIES6
Pennsylvania Cases
Weaver v. Franklin County, 918 A.2d 194, 202 (Pa.Cmwlth. 2007)

l

Reading Radio, Inc. v. Fink, 833 A.2d 199, 212 (Pa.Super. 2003)

l

Pennsylvania Statutes and Constitution
42 Pa.C.S. §8344 Defamation

l

42 Pa.C.S. §8351 Wrongful use of civil proceedings

l

Pa.R.A.P. §313(b) Collateral Orders

i

Pa. Constitution Article 1§11 Courts to be open

i,2

U.S. Supreme Court Cases
U.S. Supreme Court 12-10508 Ochoa v. Rubin

5

U.S. Statutes and Constitution
18 U.S.C. §1346 Definition of “scheme or artifice to defraud

i,2

18 U.S.C. §1961 Racketeering influenced and corrupt organization

i,2

28 U.S.C. §1257(a) State courts; certiorari

1

U.S. Constitution Article IV. Section I. Full Faith and Credit

i,2

6 .pdf versions of this document contain hotlinks to full texts of all citations.

1
siciiR

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgements below.

—+--OPINIONS BELOW
The opinions of the highest state court to review the merits of this case appear
at App.1-2 as Appendices A-B. The orders and opinions of the trial court appear at
App.3-4 as Appendix C.
All related court actions, as well as state and federal law enforcement complaints
and USPS priority mail service records, are included in the Root Data:
https://www.dropbox.com/sh/yvt5jv2dim5fklq/AdENY_UOJt

♦
JURISDICTION
The date on which the highest state court decided this case was 09-16-19.
A copy of that decision appears at App.5 as Appendix D. A petition for rehearing was
not filed. The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Constitutional and Statutory provisions previously presented to this Court
should be regarded as if entered here in their entirety, especially:1
Pa. Constitution Article 1§11. Courts to be open
All courts shall be open; and every man for an injury done him in his lands,
goods, person or reputation shall have remedy by due course of law, and right and
justice administered without sale, denial or delay.
18 U.S.C. §1346. Definition of “scheme or artifice to defraud”
For the purposes of this chapter, the term “scheme or artifice to defraud”
includes a scheme or artifice to deprive another of the intangible right of honest
services.
18 U.S.C. §1961 Racketeering influenced and corrupt organizations
(1) “racketeering activity” means (A) any act or threat involving murder,
kidnapping, gambling, arson, robbery, bribery, extortion, dealing in obscene matter, or
dealing in a controlled substance or listed chemical (as defined in section 102 of the
Controlled Substances Act), which is chargeable under State law and punishable by
imprisonment for more than one year;
Also:
U.S. Constitution Article IV§1 Full Faith and Credit
Full Faith and Credit shall be given in each State to the public Acts, Records,
and judicial Proceedings of every other State. And the Congress may by general Laws
prescribe the Manner in which such Acts, Records and Proceedings shall be proved, and
the Effect thereof.

1 https://www.academia.edu/36286355/U.S._Supreme_Court_Conversations

3

STATEMENT OF THE CASE
The 250 Root Facts of this case are well known to this Court.2
Since 11-07-06 I have endured the lies, threats, fraud and abuse of the courts by
Defendants 1,10,11,12,13 with as much equanimity as possible, while carefully
preserving the Root Data by witnessed and verified service to Honest Judge Wettick in
the Allegheny County Court of Common Pleas at GD-13-011757.3
The reason for this is that I do not share the cynical view held by Defendants 10,
11,12,13 that justice is a zero sum game, with winners and losers called by a judge like
a referee in a sports competition. Rather, I was reared in the same tradition as Honest
Judge Wettick, who holds that a higher form of justice is turning enemies into friends
by disabusing them of their errors and reminding them of their own better natures.
Honest Judge Wettick has since retired, but he left a model of justice in the
Civil/Commerce and Complex Litigation Center, where the facts and laws could be
examined dialogicallyA So, now this Court is presented with an existential choice:
to heed these shrill demands to strip me of that voice granted to me by the Founders,
or to hearken to the model of that one true judge!

2 See attached Root Facts or https://www.academia.edu/37105946/Root_Facts compared to 10-18-11
11-5664 Petition for Writ of Certiorari at https://www.academia.edu/
5780500/10-18-ll_ll-5664_Petition_for_Writ_of_Certiorari
3 Root Data = https://www.dropbox.com/sh/yvt5jv2dim5fklq/AADftLwY5jaDvFXTu2d7X4O7a?dl=0
4 Which our predecessors intended by ooa eoriv dkrjdrj, doa 6Lxaia and da mihi factum, dabo tibi jus.

4
REASONS FOR GRANTING THE PETITION
Having been reared in the tradition of Originalism, I am inclined to read Pa.
Constitution Article 1§11 as an axiomatic statement of facts about the nature of our
public world, as implacable as the laws of karma. It tells us that all the courts shall be
open, and assures us that there are just remedies for our injuries. It does not, however,
tell us what those remedies are. Nor does it tell us what to do when overwhelming
forces attempt to destroy the truth and circumvent the courts. That is why I have
preserved this record of my speeches and deeds concerning truth and justice.
#NewOrganon was here before some of you joined this Court, and it will be here
long after the present crisis has passed.5
Therefore, this Supreme Court of the United States of America should affirm
that all the courts shall be open by granting review.

5 See https://www.academia.edu/
35471143/11-07-16_A_Philosophical_and_Mathematical_Model_of_Truth_or_NewOrganon

5

♦

CONCLUSION
This petition for a writ of certiorari should thus be granted.
Then as I promised the late, Hon Antonin Scalia on 10-24-13:
“Finally, by merely allowing yourselves to be seen looking in my direction, you
will effect immediate, transformative good for all, while long being remembered as just
and wise and merciful.” -10-2^-13 U.S. Supreme Court 12-10508
Terras Irradient!

Michael Ramon Ochoa,
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
Date: November 07, 2019

